TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                Fiscal Year 2006 Review of Compliance With
                Legal Guidelines When Conducting Seizures
                           of Taxpayers’ Property



                                          August 9, 2006

                              Reference Number: 2006-30-113




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.


 Redaction Legend:
 1 = Tax Return/Return Information
 3(d) = Identifying Information - Other Identifying Information of an Individual or Individuals


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                  August 9, 2006


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                         Michael R. Phillips
                               Deputy Inspector General for Audit

 SUBJECT:                      Final Audit Report – Fiscal Year 2006 Review of Compliance With
                               Legal Guidelines When Conducting Seizures of Taxpayers’ Property
                               (Audit # 200530025)

 This report presents the results of our review of the Internal Revenue Service’s (IRS) compliance
 with legal guidelines when conducting seizures. The overall objective of this review was to
 determine whether seizures conducted by the IRS complied with legal provisions set forth in
 Internal Revenue Code (I.R.C.) Sections (§§) 6330 through 6344 (1994 & Supp. IV 1998) and
 with the IRS’ own internal procedures. This audit focused on determining whether the IRS
 conducted seizures in compliance with these legal and internal procedures. It was not intended
 to determine whether the decision to seize was appropriate or to identify the cause of any
 violations.

 Synopsis
 To ensure taxpayers’ rights are protected, the IRS Restructuring and Reform Act of 19981
 amended the seizure provisions in I.R.C. §§ 6330 through 6344. The Treasury Inspector General
 for Tax Administration is required under I.R.C. § 7803(d)(1)(A)(iv) (Supp. IV 1998) to evaluate
 annually the IRS’ compliance with these legal seizure provisions to ensure taxpayers’ rights were
 not violated while seizures were being conducted. We have evaluated the IRS’ compliance with
 the seizure provisions since Fiscal Year 1999.




 1
  Pub. L. No. 105-206, 112 Stat. 685 (codified as amended in scattered sections of 2 U.S.C., 5 U.S.C. app.,
 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).
